OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/HAITI’S
HEALTH INFRASTRUCTURE
PROGRAM
AUDIT REPORT NO. 1-521-14-008-P
April 25, 2014




SAN SALVADOR, EL SALVADOR
Office of Inspector General


April 25, 2014

MEMORANDUM

TO:                  USAID/Haiti Mission Director, John Groarke

FROM:                Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:             Audit of USAID/Haiti’s Health Infrastructure Program
                     (Report Number 1-521-14-008-P)


This memorandum transmits our final report on the subject audit for your review and comment.
In finalizing the audit report, we considered your comments on the draft report and included
them in their entirety in Appendix II of this report.

The report includes seven recommendations. Based on your written comments in response to
the draft report, management decisions have been reached on all seven, and final action was
taken on one recommendation. Please provide the Audit Performance and Compliance Division
in the USAID Office of the Chief Financial Officer with the necessary documentation to achieve
final action on the remaining six recommendations.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................3

     Program Was Significantly Behind Schedule .........................................................................3

     Sustainability Was Not Addressed Adequately ......................................................................5

Other Matter ..............................................................................................................................9

     Infrastructure Projects Lacked Detailed Sustainability Plans .................................................9

Evaluation of Management Comments..................................................................................11

Appendix I—Scope and Methodology ...................................................................................12

Appendix II—Management Comments ..................................................................................14
SUMMARY OF RESULTS
On January 12, 2010, an earthquake struck near Port-au-Prince, Haiti. By most accounts, this
was one the worst humanitarian and economic disasters in the Western Hemisphere; the
earthquake is estimated to have caused 230,000 deaths and displaced millions of people from
their homes. The World Bank reported that the earthquake caused $7.8 billion in damage, about
120 percent of Haiti’s 2009 gross domestic product. According to the Haitian Government, more
than 50 hospitals and health centers collapsed or became unstable.

In March 2010 the international community held a conference in New York and pledged more
than $9 billion to support Haiti’s recovery from the earthquake. To help with this pledge,
Congress passed the Supplemental Appropriations Act, 2010, 1 which provided more than
$1 billion in reconstruction funds for Haiti. On January 3, 2011, the U.S. Government published
the 5-year Post-Earthquake USG Strategy: Toward Renewal and Economic Opportunity,
establishing priorities to help Haiti reach certain reconstruction goals. The report identified
four areas of investment that are critical to the nation’s economic growth and stability:
(1) infrastructure and energy, (2) food and economic security, (3) health and other basic
services, and (4) governance and rule of law.

In August 2011 USAID/Haiti issued an activity approval document (AAD), outlining a plan to
address the priorities defined in the post-earthquake strategy for health and other basic
services. The mission’s overall health objective is to improve the health and nutrition status of
the Haitian population, and its post-earthquake strategy focused on reinforcing the physical
infrastructure of a number of health facilities, building medical supply warehouses, and
reconstructing the State University Teaching Hospital (HUEH) and the National Campus for
Health Sciences (NCHS) in downtown Port-au-Prince. The mission expected to complete these
activities by December 2015 at a cost of $99 million. As of December 31, 2013, USAID/Haiti has
obligated $17.3 million and disbursed $8.2 million.

The audit objective was to determine whether USAID/Haiti’s Health Infrastructure Program
improved the health and nutrition status of the Haitian population by constructing and renovating
health facilities at the national and local levels. The audit found that the program made limited
progress towards these objectives, primarily because the construction of health facilities is
behind schedule and few projects have been completed (page 3). Furthermore, USAID/Haiti has
not completed all necessary steps for sustainability planning to ensure that these projects, once
completed, can provide the intended benefits (page 5). In addition, the mission may benefit from
expanded monitoring for sustainability of all infrastructure projects (page 9).

To strengthen the Haiti’s Health Infrastructure Program, we recommend that the mission:

1. Complete its staffing plan by hiring the appropriate number of technical and contracting staff
   with engineering and construction expertise to manage the mission’s infrastructure program
   properly (page 5).

2. Consolidate the infrastructure activities under the Office of Infrastructure Engineering and
   Energy (OIEE) (page 5).

1
    Supplemental Appropriations Act, 2010, Public Law 111-212, Title I, Chap. 10, 124 Stat. 2302, 2320
    (July 29, 2010).


                                                                                                    1
3. Issue a mission order to provide specific guidance on mission policy and procedures for the
   design, procurement, implementation, and oversight of all infrastructure projects with
   engineering and construction activities (page 5).

4. Develop, in collaboration with the Haitian Government, sustainability plans for each of the
   infrastructure projects that (1) include mechanisms to make sure the Haitian Government
   formally commits funds in its official budget that cover the projected costs (both financial and
   human resources) to maintain and use the project, and (2) include targets the Haitian
   Government must meet that indicate progress toward meeting its commitment to fund,
   maintain, and use the projects (page 7).

5. Develop a monitoring plan to assess regularly the Haitian Government’s progress in meeting
   the targets in the sustainability plan and a plan of action should targets not be met (page 8).

6. Update the project implementation letters and Foreign Assistance Act, Section 611 (e)
   certifications as necessary based on the revised projected operations and maintenance
   costs and completion of the sustainability plans for each project (page 8).

7. Develop a mission order that requires the development of detailed sustainability plans for all
   significant infrastructure projects that (1) include mechanisms to confirm that the Haitian
   Government formally commits funds in its official budget that cover the projected costs (both
   financial and human resources) to maintain and use the project, (2) include targets that the
   Haitian Government must meet that indicate progress toward meeting its commitment to
   maintain and use the projects, and (3) requires the completion of monitoring plans to track
   the Haitian Government’s progress in meeting its targets in the sustainability plans and a
   plan of action should targets not be met (page 10).

Detailed findings follow. Appendix I describes the audit scope and methodology. Our evaluation
of USAID/Haiti’s management comments will appear on page 11, and the mission’s comments
will appear in Appendix ll.




                                                                                                 2
AUDIT FINDINGS
Program Was Significantly Behind
Schedule
According to Post-Earthquake USG Haiti Strategy, the U.S. Government plans to place a
greater emphasis on strengthening the health system and renovating and constructing damaged
health-care facilities in Haiti within 5 years.

In April 2011, USAID/Haiti issued its AAD, which identified a number of construction and
renovation projects for some of the main facilities that would contribute to the mission’s health
objectives. The mission expected to finish building medical supply warehouses within the first 18
months (by June 2012) and all the hospitals and facilities by the end of the project in December
2015.

However, as of January 2014 (more than halfway through the implementation period), with the
exception of some small-scale renovations (including power upgrades to a few health-care
facilities), construction on the major infrastructure projects had not started, as described in the
table below.

           Status of Health Infrastructure Program as of January 2014 (Audited)
                  Activity                Projected Start              Target Completion
    Reconstruction of HUEH                January 2014                 December 2016
    Reconstruction of NCHS                April 2014                   January 2016
    Construction/Renovation of Referral
    Networks Infrastructures:
        • St. Michel                      April 2014                   December 2015
        • Fort Liberte                    April 2014                   May 2016
        • Platana Health Center           June 2014                    March 2015
        • Justinean Pediatrics            August 2014                  December 2015
    Construction/Upgrade of Facilities
                                          January 2014                 October 2014
    for Disabled People
    Construction of Medical Supply
                                          August 2014                  February 2016
    Warehouses

Delays occurred for several reasons.

Lack of Engineering and Contracting Staff With Construction Expertise. Engineers and
contracting staff with construction expertise are needed to properly design, procure, implement,
and monitor large, complex construction projects.

However, the mission did not have adequate engineering and contracting services to manage
this large program. From June 2011 to August 2012, the mission did not have an engineer or
contract specialist on staff dedicated to the program; two engineers from USAID/Washington on
consecutive temporary duty assignments managed the startup and early implementation.
Mission officials said they had difficulty attracting qualified, experienced USAID engineers to
Haiti and had been trying since 2011 to recruit a senior USAID engineer to head the Office of




                                                                                                 3
Infrastructure, Engineering, and Energy (OIEE). That office continues to operate without a
director with engineering or construction experience.

Moreover, USAID/Haiti manages more than $800 million in infrastructure projects but has not
consolidated its engineering services for all construction activities. There are four engineers in
OIEE, three in the Health Office, one in the Office of Economic Growth and Agricultural
Development, and none in the Office of Democracy and Governance. Engineers from each
office function independently and do not share staff.

In addition, there was a consistent lack of adequate contracting staff with construction
experience. To date, the mission has not been able to identify a contracting officer or specialist
with construction contracting experience to support the health program. Since inception, it has
had seven different contract specialists, five of whom have been on temporary duty assignment.
Infrastructure projects are complex, and the solicitation process for them is multifaceted with a
number of implementing partners and stakeholders involved. Several mission officials involved
with the program said the mission’s lack of staff with expertise in this area caused delays during
the process. For example, the mission submitted a request for proposal (RFP) for the NCHS
project on August 2, 2012, that did not include detailed technical specifications or drawings. As
a result, the mission received more than 160 questions and requests for clarification from
contractors about the RFP.

The mission suspended the original RFP and hired an architecture/engineering (A/E) firm to
develop a more detailed design with technical specifications to address these queries. It
reissued the RFP in February 2013, but only two bidders submitted proposals. One was
disqualified for technical reasons, and the other’s submitted price was above the stipulated
contract price ceiling. The mission issued a third RFP in November 2013 and has not yet
awarded this contract.

Lack of Policies and Procedures for Managing Large, Complex Construction Projects.
Despite the large amount of funding provided for construction and infrastructure projects in Haiti,
the mission does not have policies and procedures on how to manage them; instead, they have
been planned and managed on an ad hoc basis. Although the Agency’s construction policy was
issued in April 2012, it primarily describes what type of instrument must be used when making
awards for construction activities and does not have specific guidelines for project design,
implementation, and oversight.

The mission would benefit from a policy that specifically addresses key decisions, such as when
to hire an A/E firm to perform construction management, engineering design, and quality
assurance management for design and construction phases. The guidance also should clarify
when USAID needs an engineer to serve as the contracting officer’s representative or activity
manager to provide technical guidance, monitoring, and oversight for the contract, among other
things.

USAID/Haiti did not award a contract to an A/E firm to support the design and management of
the program until March 30, 2012, more than 2 years after the earthquake. The absence of
technical staff within the mission with specific guidelines to follow, combined with the lack of an
A/E firm to provide design and construction management services, resulted in the mission
revising poor original designs and budgets, and caused delays in implementing the program.
Mission officials said the lack of standard contract terms and conditions for engineering and
construction also delayed the programs.



                                                                                                 4
Challenges With Key Personnel. For 13 months (from July 2012 to August 2013) during a
critical phase of the program, USAID/Haiti did not have a mission director. This contributed to
the delays because important decisions were not made in a timely manner.

Additionally, working with a coordinator from another U.S. agency posed challenges to
implementation. After the earthquake in 2010, the State Department paid a Haiti health
reconstruction coordinator to help organize the reconstruction efforts with the mission and other
agencies and to provide overall project management. However, mission officials said the
coordinator’s role was not well defined or clearly explained to the USAID/Haiti construction
team. and the coordinator played a much larger role than expected, including directing and
supervising USAID/Haiti staff. The coordinator became the prime point of contact for the
Ministry of Health and told mission staff to avoid all direct communications with the ministry.
This caused delays particularly in drafting legal documents with the Haitian Government and
helping it decide how to maintain the infrastructure projects after they are done.

According to the official position description, the State Department coordinator was required to
report directly to the USAID/Haiti mission director. However, mission officials said the
coordinator did not. The coordinator left the position in October 2013, and the mission is working
with State to define the coordinator’s role and responsibilities better.

These problems collectively put the program significantly behind schedule and in a poor position
to achieve its goals within the planned time frames. The delays have hampered the delivery of
the program’s intended benefits, and thousands of Haitians do not have adequate medical care.
Because USAID/Haiti has filled the mission director’s position, and he is working with State to
define the coordinator’s scope of work, we are not making recommendations to address these
problems. However, to make sure that they are addressed, we are making the following
recommendations.

   Recommendation 1. We recommend that USAID/Haiti complete its staffing plan by
   hiring the appropriate number of technical and contracting staff with engineering and
   construction expertise to manage the mission’s infrastructure program properly.

   Recommendation 2. We recommend that USAID/Haiti consolidate the infrastructure
   activities under the Office of Infrastructure, Engineering, and Energy.

   Recommendation 3. We recommend that USAID/Haiti issue a mission order to provide
   specific guidance on mission policy and procedures for the design, procurement,
   implementation, and oversight of all infrastructure projects with engineering and
   construction activities.

Sustainability Was Not Addressed
Adequately
USAID’s Automated Directives System (ADS) 200.3.1.5 states, “The ultimate goal of
development cooperation is to enable developing countries to devise and implement their own
solutions to key development challenges and to develop resilience against shocks and other
setbacks.” To meet this goal, USAID must “ensure that activities or services are tied to
sustainable financing models.” Furthermore, ADS 201.3.9.3(g) states that during the project
design phase, the mission should have a plan that includes “an appropriate sustainability
strategy to ensure that the institution(s) will remain administratively and financially sustainable



                                                                                                 5
by the end of the project and equipped to continue to play their roles in local development.”

USAID/Haiti has not addressed the sustainability of its health infrastructure projects adequately.
While the mission has certified that the Haitian Government can maintain and use each of the
projects effectively after USAID funding ends, current information since the certifications were
prepared needs to be addressed, and the mission has not developed a clear business plan for
each project. These problems are described below.

Implementation Letters and Certifications Were Not Current. The Foreign Assistance Act,
Section 611(e) certification provides that no assistance “shall be furnished with respect to any
capital assistance project estimated to cost in excess of $1,000,000 until the head of the agency
. . . has received and taken into consideration a certification from the principal officer of such
agency in the country in which the project is located as to the capability of the country (both
financially and human resources) to effectively maintain and utilize the project.”

The USAID Administrator has delegated his authority to receive and take into consideration
611(e) certifications to his assistant administrators within their respective areas of responsibility.
For USAID/Haiti, the assistant administrator for the Bureau for Latin America and the Caribbean
is required to provide the certifications.

The audit found the following deficiencies in the processes followed in completing the
certifications.

•   Reconstruction of NCHS. The bureau signed the 611(e) certification on February 27, 2013,
    documenting that Haiti can operate and maintain NCHS. The certification was based on the
    implementation letter (IL) signed by the mission and the Haitian Government. Haiti agreed to
    pay for all recurrent nonpersonnel-related operations and maintenance costs estimated to
    be $140,000 (1 percent of the total estimated construction cost) per year to maintain the
    project after USAID funding ends, as well as other important costs such as training and
    salaries. However, the IL did not provide an estimate of these personnel-related costs. In
    addition, the estimated amount for the nonpersonnel-related costs was not analyzed and
    calculated carefully.

    Subsequently, following completion of initial architecture and engineering design work, the
    mission performed a more detailed cost analysis and determined that the estimated
    recurring facility operations and maintenance costs could actually exceed $560,000 per
    year, if operated to U.S. standards; most of that amount is the estimated cost to fuel and
    maintain generators to provide power to the facilities. Therefore, the mission should update
    the estimated costs in the 611(e) certification to include the latest facility design information.
    Furthermore, the IL was signed and agreed to based on an amount that is significantly less
    than the actual amounts needed to sustain the campus.

•   Construction of the Community Referral Hospital at St. Michel. The bureau signed the
    611(e) certification in August 2012 documenting that the Haitian Government can operate
    and maintain a hospital, health center, housing, and equipment. In the IL, Haiti agreed to
    pay for nonpersonnel-related operational and maintenance costs, and all training and
    salaries totaling more than $1.4 million per year.

    However, the mission did not perform any detailed analysis to determine whether the
    government can cover these costs. The mission is relying on the Haitian Government’s
    written commitment that it will cover them. While obtaining this commitment is important, a


                                                                                                    6
    more detailed analysis is needed to provide a substantial basis for certifying that Haiti can
    maintain and use the health network.

•   Construction of Medical Supply Warehouses. The mission has budgeted approximately
    $12 million to construct a new central warehouse in Port-au-Prince and the probable
    construction of two smaller warehouses outside of the capital. At the time of the audit,
    USAID/Haiti’s A/E firm, AECOM, had finished about 35 percent of the design for the central
    warehouse with a projected budget of approximately $9 million. The mission has not
    prepared the 611(e) certification or obtained the certification from the bureau that the Haitian
    Government can operate and maintain these facilities. Mission officials said the certifications
    would be completed before the mission awards any construction contracts.

Business Plans That Address Sustainability Were Not Completed. In its AAD, USAID/Haiti
stated that it would “commit to providing partial support for post-construction operating and
maintenance costs up to 5 years following the completion of health facility construction,
diminishing each year to zero, only after a clear business plan for each facility is established
with the Ministry of Health.” The AAD also stated that USAID, as a condition of construction,
would develop indicators that would tell the mission before the 5 years are up whether or not the
program is likely to meet its targets.

The issue of sustainability in the poorest country in the Western Hemisphere is a significant
challenge and not one that is addressed easily. Mission officials said sustainability is a major
concern to them, and they have taken steps to mitigate the risks associated with the health
infrastructure program. The mission is working with the Ministry of Health on a number of
projects to help build its ability to sustain the nation’s health system. However, mission officials
agreed that they have not developed a business plan with indicators as a condition of
construction for any of the infrastructure projects.

In addition, securing the Haitian Government’s commitment to fund the recurring operational
and maintenance costs through signing ILs is an important aspect of sustainability. But it does
not fulfill the requirement of developing a “clear business plan” that addresses the sustainability
of each facility. Such a plan is important because the government has not demonstrated that it
can fund these projects. For example, mission officials said the Haitian Government has not set
up an official budget to operate and maintain these projects. On April 22, 2013, the Minister of
Health sent a letter to USAID/Haiti stating that USAID’s assistance should not be limited to the
construction of new facilities but should also take into consideration the operations of the facility.
Mission officials subsequently met with the minister and other government officials, and
reiterated that Haiti had signed its intent to cover these costs.

These examples highlight the challenges regarding the issue of sustainability in Haiti and the
need for a focused effort on having a viable, realistic business plan to mitigate the inherent risks
for the infrastructure projects. Effective plans would have targets that allow the mission to
measure the Haitian Government’s ability to take over the maintenance and operation of the
newly rehabilitated or constructed facilities. In addition, the plans should include steps to be
taken in the event that sustainably targets are not met; these steps might include support from
other donors or adjusting the scope of the project to bring it more in line with whatever the
government is capable of performing. Therefore, we make the following recommendations.

    Recommendation 4. We recommend that USAID/Haiti, in collaboration with the Haitian
    Government, develop sustainability plans for each of the infrastructure projects that
    (1) include mechanisms to confirm that the Haitian Government formally commits funds


                                                                                                    7
in its official budget that cover the projected costs (both financial and human resources)
to maintain and use the project, and (2) include targets that the Haitian Government
must meet to indicate progress toward meeting its commitment to fund, maintain, and
use the projects.

Recommendation 5. We recommend that USAID/Haiti develop a monitoring plan to
assess regularly the Haitian Government’s progress in meeting the targets in the
sustainability plan and a plan of action should targets not be met.

Recommendation 6. We recommend that USAID/Haiti update the project
implementation letters and Foreign Assistance Act, Section 611 (e) certifications as
necessary based on the revised projected operations and maintenance costs and
completion of the sustainability plans for each project.




                                                                                             8
OTHER MATTER
Infrastructure Projects Lacked
Detailed Sustainability Plans
As previously noted in this report, the mission manages more than $800 million of infrastructure
projects in Haiti managed under OIEE and the offices of Economic Growth and Agricultural
Development, Democracy and Governance, and Health. While we audited only those under the
health office, mission officials said all the infrastructure projects face similar sustainability
challenges.

ADS 201.9.9.3(c), “Sustainability Analysis,” requires missions to “analyze key sustainability
issues and considerations around a host of issues including economic, social soundness,
cultural, institutional capacity, political economy, technical/sectoral, and environmental.” The
sustainability analysis also requires a review of the “financial costs of the program, its recurrent
costs, and its maintenance capability and costs (if applicable), as well as ensuring that future
revenues will be adequate.”

Minimizing the sustainability risks of infrastructure projects implemented in Haiti is a challenge.
In a previous audit report, we noted that a $2.3 million infrastructure project under USAID/Haiti’s
Watershed Initiative for National Natural Environmental Resources Program was at risk. 2 The
report found that people living near the Grise River, which the program has widened and
dredged to minimize the risk of flooding, continue to mine sediments and dump trash in the
water. Mining weakens the retaining walls built by the program on riverbanks, and dumping
negates the dredging efforts. Yet both practices continue because the Haitian Government has
not taken steps to stop them.

In addition, the U.S. Government Accountability Office (GAO) also reported that USAID
infrastructure projects face sustainability challenges. 3 GAO found that USAID allocated $170.3
million to construct a power plant and port to support the newly developed Caracol Industrial
Park (CIP). The report noted that “the sustainability of the CIP, power plant, and port are
interdependent; each must be completed and remain viable for the others to succeed.” Further,
“USAID’s contribution to port construction was not intended to fund the entire port, and it is
unclear whether the Haitian Government will be able to find a private sector company willing to
contribute the large amount of remaining funding through a public-private partnership.” This
uncertainty, according to GAO, “puts at risk USAID’s investments in port planning and design,
as well as the sustainability of the CIP and power plant due to the three projects’
interdependence.”

GAO also reported uncertainties about the sustainability of the mission’s New Settlement
program. The report noted that the mission dedicated some funding to help “ensure
sustainability through the development of community support mechanisms, but it was unclear if
funding for these support mechanisms will be available for each new settlement.” In addition,
the report stated, “USAID has taken steps to secure commitments for partner donor funding to


2
    Report No. 1-521-12-003-P, April 2012.
3
    GAO, “HAITI RECONSTRUCTION: USAID Infrastructure Projects Have Had Mixed Results and Face
    Sustainability Challenges,” June 2013.


                                                                                                  9
assist in these efforts, but has yet secured such commitments for all planned settlements and it
is uncertain whether the partner organizations will be able to fulfill their commitments.”
Because the risks of sustaining infrastructure projects are high and not limited to just those
projects implemented under the Health Infrastructure Program, we make the following
recommendation.

   Recommendation 7. We recommend that USAID/Haiti develop a mission order that
   requires the development of detailed sustainability plans for all significant infrastructure
   projects that (1) include mechanisms to confirm that the Haitian Government formally
   commits funds in its official budget that cover the projected costs (both financial and
   human resources) to maintain and use the project, (2) include targets that the Haitian
   Government must meet that indicate progress toward meeting its commitment to
   maintain and use the project, and (3) requires the completion of monitoring plans to track
   the Haitian Government’s progress in meeting its targets in the sustainability plans and a
   plan of action should targets not be met.




                                                                                                  10
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/Haiti agreed with all seven recommendations. Based
on our evaluation of management comments on the draft report, we have determined that the
mission has made management decisions on all seven recommendations and took final action
on one.

Recommendation 1. USAID/Haiti agreed with the recommendation. It has conducted a
workforce analysis and is developing an updated staffing plan with a target completion date of
May 31, 2014. Accordingly, a management decision has been made on this recommendation.

Recommendation 2. USAID/Haiti agreed with the recommendation, and, as of February 3,
2014, merged the Haiti Health Infrastructure Program with OIEE. Accordingly, final action has
been taken on this recommendation.

Recommendation 3. USAID/Haiti agreed with the recommendation. Mission officials said they
plan to develop an engineering and construction mission order to address planning, design,
procurement, implementation, oversight, and project closeout for all construction activities. The
mission expects to complete the order by September 30, 2014. Accordingly, a management
decision has been made on this recommendation.

Recommendation 4. USAID/Haiti agreed with the recommendation. The officials plan to
collaborate with the Haitian Government to develop sustainability plans with mechanisms for
each major health infrastructure project by March 31, 2015. Accordingly, a management
decision has been made on this recommendation.

Recommendation 5. USAID/Haiti agreed with the recommendation. Mission officials said they
plan to include formal procedures in the engineering and construction mission order and project
sustainability plans to address how they will monitor Haiti’s progress toward agreed
sustainability targets by March 31, 2015. Accordingly, a management decision has been made
on this recommendation.

Recommendation 6. USAID/Haiti agreed with the recommendation and plans to update as
necessary the implementation plans for all infrastructure projects by March 31, 2015.
Accordingly, a management decision has been made on this recommendation.

Recommendation 7. USAID/Haiti agreed with the recommendation. It plans to address short-
and long-term sustainability plans for all USAID-funded infrastructure projects in the engineering
and construction mission order to be completed by September 30, 2014. Accordingly, a
management decision has been made on this recommendation.




                                                                                               11
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Haiti’s Health Infrastructure Program
is achieving its main goal of contributing to improving the health and nutrition status of the
Haitian population.

In planning and performing the audit, the team assessed significant management controls the
mission used to manage the program and ensure that it provided adequate oversight. The team
reviewed USAID/Haiti’s AAD, operational plan report, fiscal year 2013 annual self-assessment
of management controls (which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act), environmental compliance, award and modification
requirements, performance management plan, and other reports.

USAID/Haiti has allocated approximately $99 million to implement the program. As of
December 31, 2013, the mission had obligated $17.3 million and disbursed $8.2 million. The
allocated amount represents the amount tested.

The audit covered program activities from April 2011 through December 4, 2013. We reviewed
applicable laws and regulations as well as USAID policies and procedures pertaining to the
program, including ADS 103, 200, 201, 202, 204, 302, and 320. The audit relied on the following
sources of evidence: Post-Earthquake USG Haiti Strategy: Toward Renewal and Economic
Opportunity; the mission’s AAD; interviews with employees of USAID/Haiti, Centers for Disease
Control, and French and Haitian governments; and documentation maintained at the mission.
The audit team conducted fieldwork in Haiti from October 22 through December 4, 2013, and
conducted site visits to the reconstruction of HUEH and NCHS. The audit team also conducted
a site visit to St. Michel Community Reference Hospital in Cap Haitien.

Methodology
To answer the audit objective, we conducted interviews and site visits, and we evaluated the
mission’s management and oversight of the program, the performance of the implementing
partners, and the effectiveness of activities. We met with officials from USAID/Haiti, Centers for
Disease Control, and the French and Haitian Governments.

Through these interviews and the review of project documentation, the audit team obtained an
understanding of (1) the program’s goals, (2) how the mission designs, procures, implements,
and provides oversight of all infrastructure projects with engineering and construction activities,
and (3) whether the mission is aware of any allegations of fraud or other potential illegal acts or
noncompliance with laws, regulations, and agreement terms.

In addition, we performed the following audit tests:



                                                                                                12
                                                                                           Appendix I



•   Reviewed and tested the mission’s process for certifying that Haiti can sustain the projects
    upon completion.

•   Reviewed the mission’s staffing to determine the effectiveness of managing the program.

•   Documented and tested compliance with gender analysis, human trafficking, sustainability,
    and environmental compliance.

As the focus of the audit was to determine the causes for the delays in implementing the major
infrastructure activities in the program, we did not verify the status of the smaller-scale activities.
Because the testing and site selections were based on judgmental samples, the results and
conclusions related to the analysis were limited to the items and areas tested and cannot be
projected to the entire population. We believe our substantive testing was sufficient to support
the audit’s findings.




                                                                                                    13
                                                                                      Appendix II



MANAGEMENT COMMENTS


TO:           Jon Chasson, Regional Inspector General

FROM:         John Groarke, Mission Director/s/

DATE:         March 17, 2014

SUBJECT:      Mission Response to the Draft Report of USAID/Haiti’s Audit of Health
              Infrastructure Program (RIG draft Report No. 1-521-14-00X-P)

This memorandum represents USAID/Haiti’s actions taken to address and reach the
management decisions for the recommendations reported in the draft Audit of USAID/Haiti’s
Health Infrastructure Program/ RIG Report No. 1-521-14-00X-P. The mission agrees with
recommendations 1 through 7 and provides below the responses to these recommendations.

Recommendation No. 1: We recommend that USAID/Haiti complete its staffing plan by hiring
the appropriate number of technical and contracting staff with engineering and construction
expertise to manage the mission’s infrastructure program properly.

Mission Response
USAID/Haiti concurs with the recommendation and has conducted a workforce analysis and
developed an updated staffing plan, which is currently under review by senior management. At
this time, USAID/Haiti has two dedicated Foreign Service Engineering Officers (FSO) and one
Foreign Service National (FSN) Civil Engineer assigned to the Haiti Health Infrastructure
Program (HHIP). A third FSO Engineering Officer position was created by the mission in the
latest FSO assignment bid cycle and an officer has been assigned.

Plan of Action and Timeline
USAID/Haiti expects to have an approved staffing plan completed no later than March 31, 2014,
and will continue to evaluate staff resource allocations as HHIP projects move from design to
procurement to construction phases. Identified or anticipated staffing shortfalls will be
addressed adding additional TDY personnel, U.S. Personal Service Contract hires, or contract
Architecture and Engineering contractor support. Any long-term staffing gaps that cannot be
successfully filled by the mission will be highlighted to USAID Washington for resolution.

Recommendation No. 2: We recommend that USAID/Haiti consolidate the infrastructure
activities under the Office of Infrastructure, Engineering, and Energy.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
Effective February 3, 2014, the Haiti Health Infrastructure Program was merged with the Office


                                                                                              14
                                                                                      Appendix II


of Infrastructure, Engineering, and Energy (OIEE) which is now headed by a senior U.S.
Engineer adding a level of leadership and technical oversight that did not exist before.

Recommendation No. 3: We recommend that USAID/Haiti develop a mission order to provide
specific guidance on mission policy and procedures for the design, procurement,
implementation, and oversight of all infrastructure projects with engineering and construction
activities.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
The Office of Infrastructure, Engineering and Energy is developing an Engineering and
Construction mission order to address planning, design, procurement, implementation, and
oversight including project closeout. The USAID/Haiti mission targets finalization of this mission
order by September 30, 2014.

Recommendation No. 4: We recommend that USAID/Haiti, in collaboration with the Haitian
Government, develop sustainability plans for each of the infrastructure projects that; (1)include
mechanisms to ensure that the Haitian Government formally commits funds in their official
budget that cover the projected costs (both financial and human resources) to maintain and
utilize the project, and (2) include targets that must be met by the Haitian Government that
indicate progress toward meeting their commitment to fund, maintain, and utilize the projects.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
The Mission, in collaboration with the Haitian Government, will develop sustainability plans with
mechanisms for each major health infrastructure project to achieve mutually agreed targets and
ensure that the Haitian Government formally commits funds in their annual budget to cover the
projected operations and maintenance costs. The interim goal is that sustainability plans for
each of the major health infrastructure projects are in place no later than March 31, 2015,
reinforcing Implementation Letters with the GOH, which document initial agreements on funding,
operations and maintenance costs, and reporting requirements.

Recommendation No. 5: We recommend that USAID/Haiti develop a monitoring plan to
assess regularly the Haitian Government’s progress in meeting the targets contained in the
sustainability plan and a plan of action should targets not be met.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
The Mission will include formal procedures in the Engineering and Construction Mission Order
and project sustainability plans to address how it will monitor the Government of Haiti’s progress
toward agreed sustainability targets. The Office of Infrastructure Engineering and Energy will
work with the relevant USAID/Haiti technical offices and provide guidance and support on the
long term sustainability aspect(s) of infrastructure projects in order to properly integrate each
project with other relevant USAID programs. USAID/Haiti expects to complete this process no
later than March 31, 2015.


                                                                                               15
                                                                                         Appendix II



Recommendation No. 6: We recommend that USAID/Haiti update the Project Implementation
Letters and Foreign Assistance Act Section 611 (e) certifications as necessary based on the
revised projected operations and maintenance costs and completion of the sustainability plans
for each project.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
USAID/Haiti will update the Implementation Letters for all infrastructure projects as necessary
on an ongoing basis during the procurement and implementation phases of each project
beginning with the revised projected operations and maintenance costs and completion of the
sustainability plans for existing projects by March 31, 2015

Recommendation No. 7: We recommend that USAID/Haiti develop a mission order that
requires the development of detailed sustainability plans for all significant infrastructure projects
that; (1) include mechanisms to ensure that the Haitian Government formally commits funds in
their official budget that cover the projected costs (both financially and human resources) to
maintain and utilize the project, (2) include targets that must be met by the Haitian Government
that indicate it’s progress toward meeting their commitment to maintain and utilize the project,
and (3) requires the completion of monitoring plans to track the Haitian Government’s progress
in meeting its targets contained in the sustainability plans and a plan of action should targets not
be met.

Mission Response
USAID/Haiti concurs with this recommendation.

Plan of Action and Timeline
USAID/Haiti will address short-term and long-term sustainability plans for all USAID-funded
infrastructure projects in the Engineering and Construction mission order that is referenced
above in the response to Audit Recommendation No. 3 with a target date of September 30,
2014.




                                                                                                  16
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
